August 7, 2008

VICTOR BENAVIDES
MANAGER, FORT WORTH DISTRICT

SUBJECT: Audit Report – Equipment Maintenance in the Fort Worth District
         (Report Number DA-AR-08-009)

This report presents the results of our self-initiated audit of the effectiveness of
equipment maintenance in the Fort Worth District (Project Number 08YG024DA000).
Our objectives were to determine whether the Fort Worth District has met targets for
preventive maintenance and machine reject rates associated with letter mail operations.
Click here to go to Appendix A for additional information about this audit.

Conclusion

The Fort Worth District has generally met targets for preventive maintenance of letter
mail processing equipment; however, opportunities exist to increase preventive
maintenance completion rates to meet national standards at three of the district’s five
mail processing sites. In addition, excessive reject rates indicate opportunities for both
maintenance and operational functions to increase equipment performance to meet
operational targets. We commend the Fort Worth District for already having a cost to
process 1,000 letter mailpieces below the national average. However, addressing these
issues at mail processing sites could have lowered costs by an additional $4.7 million
for the past year and would lower letter mail processing costs by $9.4 million over the
next 2 years. Click here to go to Appendix B for our detailed analysis of this topic.

We recommend the Manager, Fort Worth District:

   1. Establish an action plan to increase equipment maintenance completion rates at
      the Lubbock, Wichita Falls, and Abilene mail processing facilities.

   2. Establish a shared maintenance and operational action plan for minimizing letter
      mail machine rejects at processing plants in the Fort Worth District.

   3. Develop procedures to ensure site compliance with letter mail operational
      standards for quality.
Equipment Maintenance in the Fort Worth District                                       DA-AR-08-009



Management’s Comments

Management agreed with the findings and recommendations. Management began to
correct maintenance deficiencies due to staff shortages in January 2008 and will
continue to formally train staff over the next 2 years. As it pertains to machine rejects,
management established an improvement team to reduce manual handling by the end
of fiscal year (FY) 2009. Lastly, district management tested a plan to improve letter mail
standards for quality at its Forth Worth plant and will implement this plan at all remaining
plants by August 23, 2008.

Management disagreed with the monetary impact of over $14.2 million. Management
stated that given a recapture rate of 31 percent for rejected mailpieces and routings that
place this mail back into the automated mail stream, the monetary impact is $1,204,926.

Click here to go to Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the findings and recommendations and management’s
corrective actions should resolve the issues identified in the report. However, we do not
agree with management’s assertion that the monetary impact is overstated because
mail is recaptured in the automated mail stream. While we do not contest that
management reprocesses letter rejects in an automated mode, our subsequent analysis
reflects letter mail flows1 to manual operations range from 2.4 percent to 6.5 percent of
total mailpieces handled, on average, for various mail sorts at Fort Worth District
processing sites. Since this is more than the reject rates presented in the report, we
believe that the automation reprocessing may not be as effective as management
indicates. Additionally, we could not validate the recapture rate management conveyed,
as the Mail History Tracking System only tracks secondary mail volume information for
14 days. As such, we believe the monetary impact presented in the report is
reasonable.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.




1
    Web End of Run (WebEOR) First Handled Pieces in Manual Operations – Letter Mail.


                                                        2
Equipment Maintenance in the Fort Worth District                    DA-AR-08-009



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel Castillo, Director,
Engineering, or me at (703) 248-2100.


    E-Signed by Darrell E. Benjamin, Jr
    VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Dennis Stasa
    Ellis Burgoyne
    David Stafford
    Daryl Johnson
    Katherine S. Banks




                                                   3
Equipment Maintenance in the Fort Worth District                         DA-AR-08-009



                         APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

As part of the OIG initiative to conduct risk-based audits, we identified letter mail
automation risks in the Fort Worth District based on historical maintenance and machine
performance data.

Key equipment used to process letter mail includes the Delivery Barcode Sorter (DBCS)
and DBCS Input Output Subsystem (DIOSS). When mail is rejected or cannot be
processed by machinery, it must be processed using manual operations, which cost
more than automation and may not be as accurate and timely.

U.S. Postal Service policies set standards for maintaining and effectively operating
equipment. Management maintenance orders outline preventive maintenance
procedures that districts must perform. Operational standards and guides give
instructions for increasing productivity, reducing missorted mail, and controlling costs.

Two systems provide important information to help management effectively and
efficiently operate equipment and process the mail.

•   The Web End of Run (WebEOR) system reproduces, archives, and summarizes
    information captured during a mail processing run and presents this information in
    report form. WebEOR offers standard reports on operations, maintenance, and
    machine configuration data.

•   The Activity Based Costing (ABC) system provides detailed cost information on mail
    processing. The ABC system transforms operational data into cost information to
    identify trends, spikes, and other anomalies and to support improvement targets at
    the plant level.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to determine whether the Fort Worth District has met targets for
preventive maintenance and machine reject rates associated with letter mail operations.
To accomplish our objectives, we performed site visits at the Fort Worth, Lubbock, and
Wichita Falls mail processing facilities and interviewed plant personnel. To assess the
maintenance completion success, we analyzed the completion rates for each site within
the Fort Worth District for DBCS and DIOSS operations. To test the effectiveness of
maintenance, we reviewed letter mail gross acceptance and reject rates in the Postal
Service DBCS Standardization Work Instruction Guide for mail processing and
maintenance. To identify the causes of the issues we identified, we analyzed pieces at
risk reports for each site in the Fort Worth District. To calculate the monetary impact,
we compared the Fort Worth District’s mail processing costs to average mail processing
costs at the national level, reviewed the percentage of mailpieces processed manually




                                                   4
Equipment Maintenance in the Fort Worth District                         DA-AR-08-009



at each site, and applied manual handling rates recorded in the ABC system to
excessive machine rejects.

We conducted this performance audit from April through August 2008 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We discussed our observations
and conclusions with management officials on June 5, 2008, and included their
comments where appropriate.

PRIOR AUDIT COVERAGE

We did not identify any prior OIG audits or reviews related to the objectives of this audit.




                                                   5
Equipment Maintenance in the Fort Worth District                                         DA-AR-08-009



                               APPENDIX B: DETAILED ANALYSIS

Preventive Maintenance Completion Rates

As shown in Chart 1, the Fort Worth District’s weighted average was generally at the
expected 95 percent completion rate for the second quarter2 in FY 2008. However,
three of five mail processing plants in the district did not complete daily preventive
maintenance routines in accordance with Postal Service maintenance policies for key
letter mail processing equipment. Daily completion averages for DBCS ranged from
81.5 percent to 99.8 percent for the period, on average, by site. Likewise, daily
completion averages for DIOSS ranged from 75.3 percent to 99.9 percent for the period,
on average, by site. According to Postal Service maintenance policy, daily preventive
maintenance rates should be at or above 95 percent.

             Chart 1. Daily Rates for Completion of Preventive Maintenance

                  Mail   Number              Number
              Processing of DBCS    DBCS     of DIOSS   DIOSS
                Facility Machines Percentage Machines Percentage
              Ft. Worth     35       99.8        7       99.9
              Lubbock        6       81.5        2       75.3
              Wichita        3       89.1        2        93
              Falls
              Abilene        4       94.5        1       94.9
              Amarillo       8       99.1        1       98.9
              District      56       96.8        13      94.6
              Weighted
              Average
             Maintenance completion targets:
             >95 percent = green, 90 to 94.9 percent = yellow, <90 percent = red

DBCS/DIOSS Rejects3

To assess the effectiveness of maintenance, we reviewed equipment reject rates for
letter mail at processing plants in the Fort Worth District for DBCS and DIOSS
platforms. As shown in Chart 2, all plants had excessive numbers of letter mail rejects
or did not meet the gross machine acceptance target for these platforms.




2
 January 5 through April 4, 2008.
3
 Rejects are mailpieces that are nonconforming for the following reasons: No Read, No Code, Out of Sequence, Out
of Sortplan, Mechanical Reject, Unreadable ID Code, or PostNET Verifier Error.


                                                       6
Equipment Maintenance in the Fort Worth District                                       DA-AR-08-009



Postal Service operational standards4 state that DBCS/DIOSS rejects should be limited5
to approximately 1 percent of total pieces fed into the machines. Limiting rejects to
1 percent is achievable, considering that 60 percent of DBCS operations nationwide
achieved at least a 99 percent gross acceptance rate between April 2007 and March
2008. Postal Service operational standards also recommend certification of
maintenance to confirm that the process is operating according to the proper
procedures. This includes consistently achieving process results, as well as ensuring
that key personnel comply with applicable procedures, guidelines, and other essential
operating behaviors. Key personnel include supervisors, craft, and maintenance
support personnel. Nonconforming mailpieces or rejects are addressed in the
certification process using a quality metric.

                       Chart 2. Fort Worth District: Letter Mail Rejects

                                               Fed Pieces         Rejects       Percentage
                Mail Processing Site             (000)             (000)         Rejected
               Abilene Processing and
               Distribution Facility
               (P&DF)                               329,129           4,671          1.42
               Amarillo P&DF                        496,219           7.798          1.57
               Fort Worth Processing
               and Distribution Center           3,039,588          56,239           1.85
               Lubbock P&DF                        441,540           8,422           1.91
               Wichita Falls Mail
               Processing Annex                     188,982           2,409          1.28
             Source: WebEOR 4/01/07 – 3/31/2008


Causes

We observed that poor maintenance completion rates at the Wichita Falls and Lubbock
processing facilities were primarily due to maintenance staff shortages or inexperienced
personnel.

Our visit to the Fort Worth processing facility and analysis of pieces-at-risk reports
showed that while maintenance routines were completed at consistently high rates,
higher-than-expected numbers of letter mail rejects resulted from maintenance and
operational shortcomings. In particular, greater attention could be given to mail being
processed on DBCS and DIOSS platforms that do not have a PostNet barcode or for
which an identification tag cannot be located. In addition, greater attention to ensuring
the availability of teams to operate and optimize DBCS and DIOSS performance would
lessen “stacker full” conditions, which contribute to excessive rejects.

4
 DBCS Standardization: Work Instruction Guide Mail Processing & Maintenance Version. 0.9, May 2006.
5
 For the percentage of rejects, we used a 1 percent estimate (1 minus Gross Acceptance Rate [GAR] of
approximately 99 percent). The actual GAR Delivery Point Sequencing (DPS) target was 99.1 percent. The GAR
non-DPS target was 98.8 percent. The actual acceptance rate for barcoded mailpieces was 99.6 percent DPS and
99.5 percent non-DPS.


                                                      7
Equipment Maintenance in the Fort Worth District                                            DA-AR-08-009



Our analyses of letter mailpieces-at-risk reports6 for the Abilene, Amarillo, Lubbock, and
Wichita Falls processing sites indicated that operator challenges, primarily out of sort
plans, caused excessive rejects on the DBCS/DIOSS platforms more than equipment
maintenance.

Opportunity to Further Lower Mail Processing Costs

Excessive machine rejects contributed to higher processing costs, since mail was
generally manually processed after being rejected by equipment. As shown in Chart 3,
the Fort Worth mail processing site has the greatest opportunity to lower mail
processing costs. For the 1-year period ending March 31, 2008, the cost to process
1,000 mailpieces manually was approximately $151.07, as reported in the ABC system.
For the same period, the automation processing cost was approximately $8.85 for 1,000
mailpieces. Recognizing the tolerance for rejects, the cost of excessive rejects7 for the
same annual period totaled $4,738,201 million for the mail processing sites in the Fort
Worth District. Because the sites could have minimized rejects by following operational
standards, we will report this amount as unrecoverable questioned costs in our
Semiannual Report to Congress. Since these costs are also avoidable in the next
2 years, we will report another $9,476,402 million as funds put to better use in our
Semiannual Report to Congress.

            Chart 3. Fort Worth District: Financial Impact of Machine Rejects

                                                    DBCS/ DIOSS            Manual            Annual Cost
                                   Number of          Excess             Processing           of Excess
         Mail Processing          DBCS/DIOSS          Machine           Cost per 1,000       DBCS/DIOSS
               Site                Machines         Rejects (000)          Pieces8             Rejects9
       Fort Worth                       42                   25,843              $151.07        $3,904,102
       Lubbock                           8                     4,007               $72.15         $289,105
       Wichita Falls                     5                       945             $142.77          $134,918
       Abilene                           5                     1,380             $119.66          $165,131
       Amarillo                          9                     2,836               $86.37         $244,945
       District Average                                                          $114.41
       National Average                                                          $130.00
       Total Unrecoverable
                                                                                                $4,738,201
       Questioned Costs
       Funds Put to Better
                                                                                                $9,476,402
       Use (2 Years)


6
  Source: Mail Image Reporting System, January – March 2008.
7
  For the period April 1, 2007, through March 31, 2008, excess rejects means that a given site, rejects were more
than 1 percent of pieces fed.
8
  We use a cost rate based on the site average per 1,000 mailpieces, as reported in the ABC system for manual letter
mail processing.
9
  This takes into account the automation costs to process the mailpieces.


                                                         8
Equipment Maintenance in the Fort Worth District            DA-AR-08-009



                        APPENDIX C: MANAGEMENT’S COMMENTS




                                                   9
Equipment Maintenance in the Fort Worth District        DA-AR-08-009




                                                   10
Equipment Maintenance in the Fort Worth District        DA-AR-08-009




                                                   11
